<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                            AGRICULTURE, RURAL  DEVELOPMENT, FOOD
                             AND DRUG ADMINISTRATION, AND RELATED 
                               AGENCIES APPROPRIATIONS FOR 2018

             ======================================================================


                                           HEARINGS
                                           
                                           BEFORE A
                                      SUBCOMMITTEE  OF THE 
                                   COMMITTEE ON APPROPRIATIONS 
                                   
                                   HOUSE OF  REPRESENTATIVES
                                ONE  HUNDRED FIFTEENTH  CONGRESS
                                           FIRST SESSION
                                            __________
                                           
                     SUBCOMMITTEE ON  AGRICULTURE, RURAL DEVELOPMENT,FOOD AND 
                            DRUG ADMINISTRATION, AND  RELATED AGENCIES

                              ROBERT B.  ADERHOLT, Alabama,  Chairman


                KEVIN YODER, Kansas   	        	SANFORD D.BISHOP, JR.,Georgia
                THOMAS J.ROONEY, Florida		ROSA  L.  DELAURO, Connecticut		
                DAVID  G.  VALADAO,  California		CHELLIE PINGREE, Maine	
                ANDY  HARRIS, Maryland 		        MARK  POCAN, Wisconsin                                   
                STEVEN M. PALAZZO, Mississippi

                NOTE:  Under committee rules, Mr.  Frelinghuysen, as  chairman of the full  
                Mrs.Lowey,  as ranking minority member of the full committee,
                are  authorized to sit  as  members of all  subcommittees.

                                 TOM O'BRIEN, PAM MILLER, ANDREW COOPER, 
                                   JUSTIN MASUCCI, and ELIZABETH KING 
                                         Subcommittee Staff

                                            __________


                                              PART  5A
                                    OFFICE OF THE SECRETARY

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


                   Printed for the use of the Committee on Appropriations

                                             __________
                                     

                               U.S. GOVERNMENT PUBLISHING OFFICE                    
28-355 PDF                             WASHINGTON : 2018                     
          



[TEXT NOT AVAILABLE]
</pre></body></html>
